WAIVER
SUPREME COURT OF THE UNITED STATES
Supreme Court Case No.

19-157
Oncor Electric Delivery Company, LLC

Eric Baggett
(Petitioner)

(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please check the appropriate boxes:
0 Please enter my appearance as Counsel of Record for all respondents.
□ There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent^):

0 I am a member of the Bar of the Supreme Court of the United States.
□ lam not presently a me
will be filed by a Bar ij*6ml

Bar of this Court. Should a response be requested, the response

Signature
Date:
(Type or print) Name.

Jeff Nobles
0 Mr.

Firm.

□ Mrs.

□ Miss

Husch Blackwell

Address.

600 Travis Street, Suite 2350

City & State.
Phone-

□ Ms.

Houston, Texas

71 3-525-6239

.Zip.

77002

Email jeff-n°kles@huschblackwell.com

A COPY OF THIS FORM MUST BE SENT TO PETITIONER’S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.
CC: Thomas Henry Smith III

